     State of Arizona's Administration of
the Fire Management Assistance Grant Program
              for the Aspen Fire
                                                                                                                 Offce of Inspector General
                                                                                                                 Offæ of  Emergency Management Oversight

                                                                                                                 u.s. Department of Homeland Security
                                                                                                                 300 Frank H. Ogawa Plaza, Ste. 275
                                                                                                                 Oakland, California 94612

                                                                                          r~'O~"';:,
                                                                                           4v'íìii.l;__
                                                                                          1.: rio\
                                                                                          i:....::i              Homeland
                                                                                          ,~
                                                                                          \~~-... !;!
                                                                                              ..:ll-/
                                                                                            -'"~1.,~~~ _~~~J ­
                                                                                                                 Security
                                                               September 22, 2008

                                                                        Preface

The U.S. Department of Homeland Security (DHS) Offce of Inspector General (OIG) was
established by the Homeland Security Act of 
  2002 (Public Law 107-296) by amendment to the
Inspector General Act of i 978. This is one of a series of audits, inspections, and special reports
published as part of our oversight responsibilities to promote economy, effectiveness, and efficiency
within the department.

The attached report presents the results of the audit of the State of Arizona's Administration of the
Fire Management Assistance Grant Program for the Aspen Fire. We contracted with the
independent public accounting firm of 
   Williams, Adley & Company, LLP to perform the audit. The
contract required that Wiliams, Adley & Company, LLP perform its audit according to generally
accepted government auditing standards and guidance from the Robert T Stafford Disaster Relief
and Emergency Assistance Act, Title 44 of     the Code of 
 Federal Regulations, and the Offce of
Management and Budget. Williams, Adley & Company, LLP reported two areas in which the State
of Arizona's administration of 
               the Fire Management Assistance Grant Program could be improved.
The report contains five recommendations addressed to the Regional Administrator, Federal
Emergency Management Agency, Region ix.

Williams, Adley & Company, LLP is responsible for the attached auditor's report dated August 29,
2008, and the conclusions expressed in the report. The recommendations herein have been discussed
in draft with those responsible for implementation. It is our hope that this report will result in more
effective, effcient, and economical operations. We express our appreciation to all of 
                                             those who
contributed to the preparation of 
               this report.


                                                                      Q o0e-f I). ¿l~N
                                                                     Robert J. L'trico
                                                                     Westem Regional Director
 .. \X Q .

 . ~ ~~~::~~.,,::~~t;'~~.~l.~~r.,:~:P





 August 29, 2008

 Westem Regional Director

 Office of Emergency Management Oversight

 Office of Inspector General

 U.S. Department of 
               Homeland Security
 300 Fran H. Ogawa Plaza, Ste. 275

 Oakland, CA 946 J 2


Williams, Adley & Company, LLP performed an audit of 
 the State of Arizona's management of
the Federal Emergency Management Agency's funds awarded under the Fire Management
Assistance Grant Program. The audit was performed in accordance with our Task Order TPD­
ARC-BPA-07-00l4 dated September 27,2007.

This rep0l1 presents the results of 
 the audit and includes recommendations to help improve

management of the audited Fire Management Assistance Grant Program.


Our audit was conducted in accordance with applicable Government Auditing Standards, July
2007 revision. Although the audit report comments on costs claimed by the State of Arizona, we
did not perform a financial audit, the purpose of which would be to render an opinion on the
State of Arizona's financial statements or the funds claimed in the Financial Status Reports
submitted to the Federal Emergency Management Agency.

We appreciate the opportunity to have conducted this audit. Should you have any questions, or if
we can be of further assistance, please caIl me on (202) 371- i 397.

Sincerely,



~~
Williams, Adley & Company. LLP


Charbet Duckett

Partner





"i2r:CJ H StrE:'ct r.-,J V\.' ~:;¡_;i1C "; ., ~~C ( /',,;c:~\¡"iriqtcr~. ~)C' :.:f)()U~: c (:.\J~)) ::' i"\ ...~-_¡. c. r :-.;i
                                                                                                                                  :";7"1 .-~::-1 e :
Table of Contents/Abbreviations

                                                                                                                                                              ;i
                                                                                                                                                              ..;
                                                                                                                                                              !;

Executive Summary.. .......... ............. ............... .......... ... ... ...... ..... ........ .... ... ........ ..... .......... ........ ..... 1

                                                                                                                                                                .,
                                                                                                                                                              Ii::

Background...................... .... .......................................................................................................... 2            ¡ ~





Results of Audit .............. ........ .................... ....................... .......... .... ................ ....... ............... ... ..... 3


     Projeet Worksheets Supporting Documentation .... ...... .............. .... ........ ................ ............ ...... 3

     Compliance with FMAG Program Requirements ........................................................... .......... 5


Appendices


     Appendix A: Objectives, Scope, and Methodology................................................................ 9



Abbreviations

     ASLD              Arizona State Land Department

     CFR               Code of 
     Federal Regulations

     DHS               U.S. Department of      Homeland Security

     FEMA              Federal Emergency Management Agency

     FMAG              Fire Management Assistance Grant

     GAR               Govemor's Authorized Representative

     OIG               Office of Inspector General

     PW                Project Worksheet

                                                                                                               ii




Executive Summary                                                                                              !
                                                                                                               f¡
                                                                                                               t:
                  Wiliams, Adley & Company, LLP audited the State of Arizona's (the state)
                                                                                                               I;
                  administration of 
         the Fire Management Assistance Grant Program (FMAG)              i

                  Program for the Aspen Fire (FMAG Declaration 2470). The objective of          the            ¡.

                  audit was to determine whether the state administered the FMAG Program in                    L.

                  an efficient and effective manner. To accomplish the objective, we                           I
                                                                                                               I.
                  considered the overall impact of material deficiencies on grant program                      i'
                  administration. Specifically, we determined how well the state (1) coordinated               ¡~

                  and communicated with the Federal Emergency Management Agency (FEMA)
                                                                                                               i
                  and subgrant applicants, (2) ensured compliance with federal laws and FEMA
                                                                                                               I'
                  guidelines, and (3) accounted for and expended FMAG Program funds. See
                  Appendix A tòr additional details on the objectives, scope, and methodology
                  of   this audit.


                  On July 17,2003, FEMA Region ix awarded $2,3 i 2,992 under FMAG
                  Declaration 2470 to the Arizona State Land Department (ASLD). FEMA
                  programmatically closed this declaration on February 22,2007. Although the
                  scope of      this engagement included an audit of          the costs reimbursed under the
                  grant, a financial audit of 

                                                          those costs was not performed. Accordingly, we do
                  not express an opinion on the state's financial statements or the funds claimed
                  in the financial status reports submitted to FEMA.

                 ASLD administered the FMAG Program effectively and efficiently but did not
                 always comply with federal 
  laws and FEMA guidelines. Specifically, the
                 state: (1) claimed $26,832 in costs that were not supported; (2) did not
                 complete the grant application correctly; (3) submitted administrative costs
                 after approved time extensions; (4) did not submit financial status reports on
                 at least an annual basis; and (5) did not have written FMAG accounting
                 policies and procedures.

                 We recommend that the Regional Administrator, FEMA Region IX:
                 (1) disallow $26,832 in unsupported costs and require the grantee to comply
                 with record retention regulations; (2) provide additional training to the state
                 on the proper completion of 
  the FMAG application; (3) provide additional
                 training to the state regarding FMAG grant submission requirements;
                 (4) require the state to comply with the annual financial reporting
                 requirements; and (5) work with the state to develop complete, written FMAG
                 related accounting procedures.

                 We held an exit conference with FEMA Region IX and the ASLD, Forestry
                 Division on July 15, 2008. FEMA and the state concurred with our findings
                 andrecommendations. A synopsis of            the verbal comments we received is
                 included in the Results of Audit section of this report.



       Stale of Arizona's Administration of the Fire Management Assistance Graiit Program

                                         for the Aspen Fire


                                                     Page i
Background
                 The Robert T. Stafford Disaster Relief and Emergency Assistance Act,
                 (Stafford Act), signed into law November 23, 1988, authorizes the President
                 to provide federal funds to state and local governments under the FMAG
                                                                                                                   í¡
                 Program for mitigation, management, and control of any fire buming on public                      !i
                                                                                                                   'J
                 or private forestland or grassland. The FMAG Program replaced the Fire                            :J
                                                                                                                 . I!
                 Suppression Assistance Program on October 30, 2001. Title 44, Code of                             Ii
                                                                                                                   I:
                 Federal Regulations (44 CFR), Part 204 provides procedures for the                                ,­
                                                                                                                  i!
                 declaration and grants management processes for the FMAG Program and                             j:
                                                                                                                  j'
                 details applicant eligibility and the eligibility of costs to be considered under
               :~

                                                                                                                  i:

                 the program.                                                                                     r:

                                                                                                                  ¡i

                 Declaration Process

                                                                                                                  f:


                 A declaration request must be submittèd while a fire is buming uncontrolled                      l
                                                                                                                  ~.
                 and threatens such destruction as would constitute a major disaster. The
                 Governor or the Govemor's Authorized Representative (GAR) is authorized to
                 submit requests to the FEMA Regional Administrator or Regional Fire Duty
                 Liaison for fire management declarations. Due to the magnitude and impact of
                 a fire, the Governor or GAR can expedite the process by verbally requesting
                 the declaration but must follow-up promptly after the date of an initial
                 telephone request with all official forms and written information.

                 Upon declaration approval by FEMA, the Govemor or GAR will enter into a
                 standing FEMA/State Agreement (the Agreement) for the declared fire and for
                 future declared fires in that calendar year. The state must have a current and
                 signed Agreement before receiving federaJ funding under the FMAG
                 Program. The Agreement states the understandings, commitments, and
                 conditions under which FEMA will provide federal assistance, including the
                 75% federal and 25% non-federal cost share provision and articles of agreement
                 necessary for the administration of 
                 the grants. The Agreement must identify
                 the state legislative authority for firefighting, as well as the state's compliance
                 with the laws, regulations, and 
 other provisions applicable to the FMAG
                 Program.

                 Grant Application and Reimbursement Process

                 Following a declaration, the state is required to submit a grant application
                 package to the FEMA Regional Administrator within 9 months of        the
                 declaration. The Regional Administrator may grant an extension of                    up to
                3 months, upon receipt of a written request from the state that includes the
                justification for an extension. The grantee must document the total eligible
                costs for a declared fire on Project Worksheets (PWs), which are submitted
                with the grant application. The Regional Administrator has 45 days from the
                receipt of 
 the state's initial grant application, or an amendment to the state's
      Stale of Arizona's Administration of the Fire ,\1anagement Assistance Grant Program
                                       for the Aspen l're

                                                         Page 2

                   grant application, to approve or deny the application package or amendment
                   or to notify the state of a delay.



                   By submitting PWs, the grantee certifies that all reported costs were incurred
                   for work that was performed in compliance with laws, federal regulations, and
                   FMAG Program policy and guidance, as well as the terms and conditions
                   outlined in the FMAG Program FEMA/State Agreement. Upon approval of
                   the grant application, FEMA obligates 
  funds after determining that: (i) the
                   state's eligible costs meet or exceed the individual or cumulative fire cost
                   thresholds; and (2) the state has up-to-date State Administrative and Hazard
                   Mitigation Plans approved by the Regional Administrator.



                   Subgrantee requests for FMAG Program funding are submitted on a Request
                   for Fire Management Assistance Sub 
   grant (FEMA Form 90- i 33) to the grantee
                   according to state procedures and within timelInes set by the grantee, but no
                   later than 30 days after the close of the incident period. The grantee will
                   review and forward the request to the Regional Administrator for final review
                   and determination.


Results of Audit
                   ASLD administered the FMAG Program in an efficient and effective manner.
                   ASLD properly coordinated and communicated with FEMA, and generally
                   accounted for and maintained adequate documentation for the $2,3 l2,992 in
                   FMAG program expenditures made in all material respects. However, ASLD
                   did not always comply with federal laws and FEMA guidelines based on the
                   following exceptions.

     Project Worksheets Supporting Documentation

                   ASLD did not accurately review or retain supporting documentation resulting
                   in $26,832 in ineligible costs. The supporting documentation deficiencies
                   include the following:

                       · No documentation to verify the hourly rates for personnel from vendor
                          fire departments.

                       · Unsupported U.S. Forest Service personnel cost.

                       · Commingled regular hours and overtime hours for personnel cost.

                      · Missing timesheet support for employee billing, per diem lodging, and
                         cell phone bill reimbursement.



        State of Arizona's Administration of the Fire Management Assistance Grant Program
                                        for the Aspen Fii'e

                                              Page 3

                  . Hotel room charges in excess of the approved lodging per diem for
                       Phoenix, AZ.

                  · Missing shift ticket for equipment cost.                                         í'
                                                                                                     !1


                 · Underpayment of an invoice amount to a county emergency
                                                                                                     II
                    management office (this cost is an offset to ineligible costs).                  ¡:

                                                                                                     I:
                                                                                                     i.Ii
                 · Transactions occurrng after the incident period.                                  !i
                                                                                                     ii
                                                                                                     ¡:

            The following criteria pertain to the unsupported costs listed above:                    I:
                                                                                                     i
                                                                                                     i:

           Title 44,     Code of 
     Federal Regulations, Section I3.42(a) (44 CFR I3.42(a)),
           Retention and Access Requirementsfor Records, provides guidanee on records
           retention of grant documentation applicable to all financial and programmatic
           records, supporting documents, statistical records, and other records of
           grantees or subgrantees which are: (i) required to be maintained by the terms
           of  this part, program regulations or the grant agreement, or (ii) otherwise
           reasonably considered as pertinent to program regulations or the grant
           agreement. According to 44 CFR i 3 .42(b) and (c), Length of 

                                                                                  retention period
           and Starting date of retention period, except as otherwise provided, records
           must be retained for 3 years from the date the grantee submits its final
           expenditure report; or if any litigation, claim, negotiation, audit or other action
           involving the records has been started before the expiration of the 3 year
           period, the records must be retained until completion of 
   the action.



           lneligible costs described in 44 CFR 204.43( c) include costs f.,r the "iraight or
           regular time salaries and benefits of a subgrantee's permanently tnipJoyed or
           reassigned personneL.



           According to 44 CFR 13.20(b)(6), grantees and subgrantees are required to
           support accounting records with source documentation such as cancelled
           checks, paid bills, payrolls, time and attendance records, contract and subgrant
           award documents, etc.

           The Governor's Wildland Fire Emergency Fund Rules, Rule lOJ 2, Retention
           and Audit of Record~, requires the claimant and its subcontractors to keep all
           records pertaining to the grant claim for 5 years from the date of final
           settlement and that these records should be avaiJable for inspection and audit.

          ASLD was not compliant with its own rules and was unable to provide
          documentation to support that they had received approval from FEMA Region
          ix for these 
 expenditures, and FEMA Region ix grant files did not contain
          information to indicate why these unallowable costs were reimbursed.



Slate of Arizona's Administration of the Fire Management Assistance Grant Program
                                 for the Aspen Fire

                                                Page 4

      Recommendations
              We recommend that the Regional Administrator, FEMA Region IX:
                                                                                                     ~~
                                                                                                     (;
              Recommendation #1. Disallow unsupported costs totaling $26,832 and	                    f!
                                                                                                     :1
              require the grantee to comply with FMAG regulations that pertain to records            I'
                                                                                                     I~
                                                                                                     I:
              retention of supporting documentation.                                                 I:
                                                                                                     Ii
                                                                                                     I:
                                                                                                     I:
     Management Comments	                                                                            i'

                                                                                                     ii
                                                                                                     i!
                                                                                                     ¡:

             ASLD and FEMA concurred that some costs did not have adequate
             documentation. However, extenuating circumstances beyond ASLD's control

             impacted its ability to fully comply with the requirements. For example,                i;

             ASLD has limited enforcem~nt tools to require local fire departments to

             provide detailed payroll information. Also, ASLD has little control over                : ,


             sub grantees ' equipment repair costs if equipment damage occurs during the
             incident but billings occur after the incident.

             FEMA said that some costs that were charged after the incident period were
             for eligible work that occurred during the incident period and suggested that
             ASLD review the ineligible costs we reported to verify eligibility. FEMA
             aJso said that if 
 the ineligible costs were determined to be insignificant after
             ASLD's review, it may be beneficial to allow these costs rather than to incur
             additional administrative costs to adjust the approved funding for this closed
             fire. FEMA agreed that the ASLD should comply with records retention
             requirements for supporting documentation and that ASLD's review of costs
             could be used only for instructive purposes on future FMAG program grant
             applications.

CompJiance with FMAG Program Requirements
             ASLD did not fully comply with grant application, financial reporting, and
             accounting policies and procedures requirements of 44 CFR. These
             requirements are all established within the regulatory guidance referenced in
             the FMAG agreement between FEMA and the state. Specific instance of
             non-compliance are discussed below.

                 · The performance period ending date on the grant application was Jeft
                     blank. 44 CFR 204.3 defines the performance period as, "the time
                     interval designated in block i 3 on the Application for Federal
                     Assistance (Standard Form 424) for the Grantee and all sub 

                                                                                       grantees to
                     submit eligible çosts and have those costs processed, obligated, and
                     closed out by FEMA." According to 44 CFR 204.64, "Within 90-days
                     of the Perfonnance Period expiration date, the state will submit a final
                     Financial Status Report (FEMA Form 20- i 0), which reports all costs

  State of Arizona's Administration of the Fire Management Assisl:mce Grant Program

                                    for the Aspen Fire


                                               Page 5

                    incurred within the incident period and all administrative costs
                   incurred within the performance period." .


                · A written time extension request for submission ofPWs for the
                    administrative costs from the grantee was not submitted to or
                    requested by FEMA. According to 44 CFR 204.51(a)(2), the state
                   should submit its grant application within 9 months of 
   the declaration
                   and upon receipt of a written request and justification for an extension,
                   the Regional Administrator may grant up to an additional 3 months for
                   submission of 
       the PWs.

               · PWs documenting total eligible costs for a declared fire were not
                  submitted with the grant application as required by 44 CFR
                   204.5l (b)( 4).

               · Annual financial status reports required by 44 CFR i 3.4l (b )(3) were
                  not submitted and no waiver of 
 the financial reporting requirements
                  was provided.

               · The state had no written procedures to outline the funds management
                   and financial reporting process for the FMAG. According to 44 CFR
                   13.20(a), the state must expend and account for grant funds according
                   to state laws and procedures for expending and accounting for its own
                  funds. Fiscal control and accounting procedures of the state, as well as
                  its subgrantees and cost-type contractors, must be sufficient to permit
                  the state to: (1) prepare reports required by the CFR and the statutes
                  authorizing the grant, and (2) trace funds to a level of expenditures
                  adequate to establish that such funds have not been used in vioJation of
                  the restrictions and prohibitions of applicabJe statutes. Under 44 CFR
                   J 3.20(b )(3), effective control and accountability must be maintained
                  for all grant and sub 
 grant cash, real and personal property, and other
                   assets.

           These conditions occurred because the h'fantee was generally not aware of
           how to complete the application form. Furthermore. according to FEMA, tlie
          program was new and the state was not fully aware of the submission
          requirements. Written procedures were not maintained because the ASLD
          employees responsible for monitoring and processing FMAG expenditures
          had been involved in performing these tasks for many years and knew the
          system and procedures required to properly ndminister the grant funds.

          FEMA Region ix contributed to these instances on non-compliance by not
          thoroughly reviewing the documentation submitted by the state and by
          nccepting the incomplete application. In nddition, the FEMA Emergency
          Management Program Specialist said that annual reporting was not required
          because the grant period was normally Jess thnn i year, and the grantee may

State of Arizona's Administraiion of the Fire Management Assistance Grant Program
                                 for the Aspen Fire

                                            Page 6

           not have financial information upon which to report until grant close out.
           However, the regulations require annual financial reporting of grant funded
           aetivities as a minimum standard to ensure that fund usage is being monitored
           and that fund expenditures wil be máde within the stipulated performance
           period.
                                                                                               .,ii
                                                                                               I'
           As previously said, the performance period was not established, and therefore,      I!

           FEMA did not have a date upon which to define the 90-day submission
                ,;
                                                                                               "

           timeframe for submitting a final financial status report (Form 20- 10). FEMA        ii
                                                                                               Ii
                                                                                               "
           did not receive the final PW from the grantee until July 27, 2006, or 3 years       !j
                                                                                               fi
           after the incident period ended. As a result of 
 the submission deficiencies, .
           FEMA could have denied acceptance of the administrative costs because they
           were submitted beyond all approved time extension periods. FEMA also
           could have denied other costs since the PWs were not submitted with the grant
           application, or amended grant application, as required. Without submitting
           the annual financial reports, FEMA cannot be reasonably assured that the
           grantee is properly monitoring or expending grant funds within the
           performance period. Because written procedures were not available, new
           employees would not have suffcient knowledge or information to properly
           process FMAG funds or report on the use of such funds. Also, by not having
           written procedures, the grantee does not have effective or efficient controls in
           place to ensure that its accounting and financial reporting processes are in full
           compliance with the grant requirements.

   Recommendations
           We recommend that the FEMA Regional Administrator, Region IX:

           Recommendation #2. Provide additional training to the state on the proper
           completion ofthe FMAG application and ensure that the grant application
           form is completed in its entirety amI reviewed for full compliance with the
           FMAG regulations.

           Recommendation #3. Provide additional training to the state regarding
           FMAG grant submission requirements, including time 'extension requests and
           PW submissions, and ensure that these requirements have been met via review
           of the grant application or amended grant application, as applicable.

           Recommendation #4. Require the state to comply with the annual financial
           reporting requirements as stipulated in the regulations for federally-issued
           grants to state and local govemments.

           Recommendation #5. Work with the state to develop written policies and
           procedures pertaining to funds management and financial reporting as a best
           practice to ensure effective internaJ controls.





Slate of Arizona's Administration of the Fire Management Assistance Grant Program
                                 for the Aspen Fire

                                     Page 7

   Management Comments

           Recommendation #2 - FEMA concurred but believes the current annual
                                                                                           ¡i
           training provided by the Regional Office is sufficient and addresses the        ~~
                                                                                           i
           discrepancies we identified for the Aspen Fire that occurred in 2003. Also,     "

           the Standard Form 424 is now being submitted by the grantee with the project.   11
           worksheets and not as they did for the Aspen Fire with only estimated costs.
           However, with FEMA's implementation of 
    the Emergency Management
           Mission Integrated Environment, grantees will now have to submit a Standard     I:
                                                                                           i
           Form 424 soon after the FMAG program declaration when only estimates are        I
           available and not all costs are compiled on PWs. FEMA agrees that when          i

           PWs are ready, incomplete applications submitted to FEMA should be held         :1
                                                                                           ~:

           until complete or corrections are made.
                                                                                           ~. :

           Recommendation #3 - FEMA concurred that continued training in grant             !"
                                                                                           i.;
           submission requirements is appropriate and it will work closely with the        ¡.­
                                                                                           i'
           ASLD to ensure that its grant application deadlines are met.                    r.


          Recommendation #4 - FEMA concurs that the reporting requirement included
          in the 44 CFR 204.64 Final Rule is that a final financial status report be
          submitted within 90-days of 
 the perfonnance period expiration date. In

          addition, FEMA recognizes that there is an annual financial reporting

          requirement for all type grants. However, for those FMAG grants that close

          within the year opened FEMA will not require more than an annual financial

          status report for the FMAG program. FEMA will set a date when the

          financial status report should be submitted. FEMA will allow the use of the

          Standard Form 269 for the annual financial status report.


          Recommendation #5 - FEMA concurs that the state's FMAG program

          Administrative Plan could include more information about policies and

          procedures pertaining to funds management and financial reporting. The state

          could perhaps attach that information as an addendum to their FMAG

          program Administrative Plan. If these policies and procedures are not written

          FEMA agrees that they should be. The FEMA Regional FMAG program staff

          would ask that the Regional Grant Administration staff review these policies

          and procedures to ensure that there are effective intemal controls.





State of Arizona's Administration of the Fire Management Assistance Grant Program
                                 for the Aspen Fire

                                     Page 8

Appendix A
Objectives, Scope, and Methodology


                          Objective

                                         the audit was to determine whether the state entity
                         The objective of 


                         administered the FMAO Program in an effcient and effective manner. To
                         accomplish the objective, we considered the overall impact of material
                         deficiencies on grant program administration. Specifically, we determined how
                         weIi the state (l) coordinated and communicated with FEMA and subgrant                      i:
                                                                                                                     r:

                         applicants, (2) ensured compliance with federal laws and FEMA guidelines,                   !i
                                                                                                                     I:
                         and (3) accounted for and expended FMAG Program funds.                                      l!
                                                                                                                     I'
                                                                                                                     I!

                                                                                                         .           i:
                         We were not engaged to and did not perform a financial statement audit, the                 ~j

                         objective of 
     which would be to express an opinion on specified elements,              f¡
                                                                                                                     :':
                         accounts, or items. Accordingly, we were neither required to nor expressed an
                                                                                                                     ~j
                         opinion on the costs claimed for the grant programs included in the scope of
                                                                                                                     ~:1
                         the audit. Had we been required and performed additional procedures or                      ii
                                                                                                                     t:
                         conducted anaudit of 
     the financial statements according to generally accepted         !!

                         auditing standards other matters might have come to our attention that would                ¡:
                                                                                                                     "
                         have been reported. This report relates only to the programs specified and
                         does not extend to any financial statements of the state.

                         Scope

                         We audited the Aspen Fire (FMAG Declaration 2470) that was awarded by
                         FEMA to the state based on a grant application dated July 17,2003. The
                         grant, totaling $2,3 i 2,992, was closed on February 22, 2007.1 This FEMA
                         grant award was selected for review because the award was significantly higher
                         than other fire declarations within the same FEMA Region. ASLD
                         administered the FMAG Program.

                         Methodology

                         We performed fieldwork at FEMA Region ix and ASLD. The state did not
                         have subgrantees under the grant. To obtain an understanding of 
         the grant
                         procedures, we reviewed FEMA regulations, the Stafford Act as amended,
                         pertinent sections ofTitIe 44 of the CFR, and Office of 
 Management and
                         Budget Circular A-87, Cost Principlesfor State, Local, and Indian Tribal
                         Governments.




i FMAG Programs are considered programmatically closed if all work has been completed and final costs submitted to
FEMA have been obligated.

             State of Arizona's Administration ofthe Fire Management Assistance Grant Pro~ram

                                              for the Aspen Fire


                                                               Page 9

Appendix A
Objectives, Scope, and Methodology

                      To achieve the objectives of 
        this audit, we:

                      i) Interviewed FEMA aiid state personnel to obtain an understanding of                  /
                                                                                                              '.
                                                                                                              i:"
                          policies and procedures followed and to identify potential intemal control          F:
                                                                                                              I
                          weaknesses and their causes;
                                                                                                              I:

                      2) Reviewed grant fies to determine whether sufficient documentation was                Ii

                          present to support proper administration of the grant;

                      3) Revjewed the state's internal controls over accounting for grants to ensure

                          that the state properly recorded and reported grant expenditures;


                     4) Reviewed a statistical sample of project worksheets to determine whether grant
                         monies were spent according to laws and regulations. We used appropriate
                         formulas to develop a variable sampling approach coupled with the risk model         "

                         promulgated by the American Institute of Certified Public Accountants.

                     5) Reviewed prior audit reports to determine whether deficiencies had been noted
                         in the reports with respect to the state's administration of 
 the FMAG Program or
                         internal controls over grant fund accounting.

                     We conducted the audit by executing tests, conducting interviews, making
                     observations, and examining documentation in the following areas:

                     i. Applicant Eligibility

                     2. Cost Eligibility

                     3. Procurement

                     4. Grantee's Accounting System and Intemal Controls

                     5. Project Worksheet Review

                     6. Grant Reporting


                     We conducted our audit between January and April 2008 and performed our
                     work according to the Government Auditing Standards prescribed by the
                     Comptroller General of 
 the United States (July 2007 Revision).




          State of Arizona's Administration of the Fire Managenifnt Assistance Crant Program
                                           for thf Aspen Firf

                                                       Page 10

                                                                                           I¡L

                                                                                           Ii
                                                                                           11

                                                                                           I:
                                                                                           ii
                                                                                           ¡:

                                                                                           "¡.,~




Additional Information and Copies
To obtain additional copies of this report, call the Office oflnspector General (OIG) at
(202) 254-4 199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criiIiinal
or noncriminal misconduct relative to depai1ment programs or operations:

    · Call our HotJine at 1-800-323-8603;

    · Fax the complaint directly to us at (202) 254-4292;
    · Email us at DHSOIGHOTLINEc?dhs.gov; or

    · Write to us at:

          DHS Office of Inspector General/MAIL STOP 2600, Attention:

          Office oflnvestigations - Hotline, 245 MUlTaY Drive, SW, Building 4 10,

          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caIler.
